            Office of Inspector General




March 30, 2005

CHRISTOPHER H. SMITH
SENIOR PLANT MANAGER, AKRON, NORTHERN OHIO DISTRICT

SUBJECT:          Audit Report – Efficiency Review of the Akron, Ohio, Processing and
                  Distribution Center (Report Number NO-AR-05-009)

This report presents the results of our review of the Akron, Ohio, Processing and
Distribution Center (Akron P&DC) located in the Eastern Area (Project Number
04YG031NO000). Our objective was to determine the efficiency of operations
performed by the Akron P&DC. This audit is the second in a series of audits covering
the Northern Ohio District. We conducted this audit at the request of the senior plant
manager, Akron, Northern Ohio District, and in cooperation with the Eastern Area.

While the Akron P&DC has experienced efficiency gains, it could further improve
operational efficiency. Specifically, the Akron P&DC underused its processing
machines, processed less mail per workhour than other similar-sized facilities, and
incurred excessive overtime. The Akron P&DC could begin to improve efficiency by
reducing workhours by 235,000.1 This reduction could produce a cost avoidance of
approximately $74 million based on a labor savings over ten years. These funds
represent funds put to better use and will be reported as such in our Semiannual Report
to Congress.

We made two recommendations to Postal Service management addressing these
issues. Management agreed to our finding, recommendations, and monetary impact
and has initiatives planned addressing the issues in this report. Management’s
comments and our evaluation of these comments are included in the report.

The Office of the Inspector General (OIG) considers recommendation 1 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. This recommendation



1
 This workhour reduction is based on management’s plan of achieving 85 percent of the target productivity goal
(Breakthrough Productivity Initiative).

    1735 N Lynn St.
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
should not be closed in the follow-up tracking system until the OIG provides written
confirmation the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Robert J.
Batta, Director, Network Operations - Processing, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Alexander Lazaroff
    Kathleen Ainsworth
    Larry Jones
    Steven R. Phelps
Efficiency Review of the Akron, Ohio,                                  NO-AR-05-009
 Processing and Distribution Center



                                    TABLE OF CONTENTS

 Executive Summary                                                           i

 Part I

 Introduction                                                                1

     Background                                                              1
     Objective, Scope, and Methodology                                       3
     Prior Audit Coverage                                                    4

 Part II

 Audit Results                                                               5

     Assessment of Resources at the Akron Processing and                     5
      Distribution Center
     Recommendations                                                         9
     Management’s Comments                                                  10
     Evaluation of Management’s Comments                                    10

 Appendix A. Eastern Area Map by Three Digit ZIP Code Area                  11

 Appendix B. Prior Audit Coverage                                           12

 Appendix C. Targeted Productivity Levels Achieved by Each Type of          16
             Mail Processing Operation and Potential Workhour
             Savings Based on Percentage of Achievement to Target
             FYs 2003 and 2004

 Appendix D. Cost Avoidance at the Akron Processing and Distribution        17
             Center (Funds Put to Better Use)

 Appendix E. Management’s Comments                                          18
Efficiency Review of the Akron, Ohio,                                             NO-AR-05-009
 Processing and Distribution Center


                                    EXECUTIVE SUMMARY
 Introduction                   The Office of Inspector General assessed the mail
                                processing operations at the Akron, Ohio, Processing and
                                Distribution Center (Akron P&DC) located in the Eastern
                                Area. Our objective was to determine the efficiency of
                                operations performed by the Akron P&DC. This audit is the
                                second in a series of audits covering the Northern Ohio
                                District. This audit was conducted at the request of the
                                senior plant manager, Akron, Northern Ohio District and in
                                cooperation with the Eastern Area.

 Results in Brief               While the Akron P&DC had experienced efficiency gains, it
                                could further improve operational efficiency. Specifically,
                                Akron P&DC underused its processing machines,
                                processed less mail per workhour than other similar-sized
                                facilities, and incurred excessive overtime.

                                These conditions occurred because Postal Service
                                managers had not evaluated operational efficiency by
                                extensively analyzing operations, evaluating machine
                                utilization, and benchmarking operations with similar-sized
                                facilities.

                                We concluded that Postal Service could increase
                                operational efficiency at the Akron P&DC by reducing
                                235,000 mail processing workhours. This reduction could
                                produce a cost avoidance of approximately $74 million
                                based on a labor savings over ten years. These funds
                                represent funds put to better use and will be reported as
                                such in our Semiannual Report to Congress.

 Summary of                     We recommended the senior plant manager, Akron,
 Recommendations                Northern Ohio District, reduce mail processing by
                                235,000 workhours and periodically evaluate the operating
                                efficiency, machine utilization, and staffing at the Akron
                                P&DC.

 Summary of                     Management agreed with our finding, recommendations,
 Management’s                   and associated monetary impact. Management’s response
 Comments                       indicated that a combination of workhour reductions and an
                                increase in mail volume through consolidations could
                                achieve the same efficiency improvement as the
                                recommended 235,000 workhour reduction. Management’s



                                               i
Efficiency Review of the Akron, Ohio,                                             NO-AR-05-009
 Processing and Distribution Center



                                comments, in their entirety, are included in Appendix E of
                                this report.

 Overall Evaluation of          Management’s comments reflect that the senior plant
 Management’s                   manager, Akron, Northern Ohio District, and the Eastern
 Comments                       Area are taking a very proactive approach to improving
                                efficiency. Management’s planned actions should correct
                                the issues identified in the report.




                                               ii
Efficiency Review of the Akron, Ohio,                                                                  NO-AR-05-009
 Processing and Distribution Center


                                             INTRODUCTION
    Background                        The Postal Service has 308 facilities with mail processing
                                      operations. These facilities process First-Class Mail in the
                                      domestic network and are divided into seven groups2
                                      ranked according to mail volume outlined in the
                                      Breakthrough Productivity Initiative. The Breakthrough
                                      Productivity Initiative was established by the Postal Service
                                      in order to drive costs out of the organization while creating
                                      continuous improvement capability. The initiative is focused
                                      on four specific areas one of which is mail processing
                                      operations. Chart 1 shows the number of mail processing
                                      facilities contained in each group.

                                                                    Chart 1
                                                        Number of Facilities In Each Group
                                                               30
                                                                                    41
                                                                                                              Group 1
                                              61                                                              Group 2
                                                                                               34
                                                                                                              Group 3
                                                                                                              Group 4
                                                                                                              Group 5
                                                                                                              Group 6
                                                   42                                        Group 4          Group 7
                                                                                               50
                                                                      50




                                      The Postal Service is attempting to right size its domestic
                                      network in response to mail volume decreases. Despite a
                                      one-year volume increase, the aggregate volume of
                                      First-Class Mail declined by nearly 5 percent from fiscal
                                      years (FY) 1999 to 2004. Aggregate First-Class Mail
                                      volume has declined in the last five years, dropping more
                                      than 4 billion pieces. In addition, the forecast for First-Class
                                      Mail volume over the next four fiscal years is projected to
                                      decrease by over 1 billion pieces. These volume trends are
                                      shown in Figures 1 and 2.




2
 For example, Breakthrough Productivity Initiative Group 1 plants processed at least 3 billion mailpieces annually,
while Group 7 plants processed no more than 456 million mailpieces annually.



                                                          1
Efficiency Review of the Akron, Ohio,                                                            NO-AR-05-009
 Processing and Distribution Center




                                       Figure 1. Actual First-Class Mail Volume


                               104
                               103
        Pieces in Billions




                               102
                               101
                               100
                                99
                                98
                                97
                                96
                                95
                                     1999     2000       2001         2002       2003       2004
                                                            Fiscal Years



                                      Figure 2. Projected First-Class Mail Volume

                             98.0
        Pieces in Billions




                             97.0


                             96.0


                             95.0
                                     2005            2006                2007             2008
                                                          Fiscal Years


                                             The Transformation Plan states the Postal Service is
                                             committed to improving its operational efficiency by
                                             consolidating mail processing operations, when feasible. In
                                             addition, the Presidential Commission3 included in its list of
                                             recommendations the need to optimize the facility network
3
    Report of the President’s Commission on the United States Postal Service.



                                                             2
Efficiency Review of the Akron, Ohio,                                                                  NO-AR-05-009
 Processing and Distribution Center


                                      by closing unneeded processing centers to improve
                                      efficiency.

                                      Akron P&DC is a Group 4 facility in the Eastern Area. (See
                                      Appendix A for Eastern Area Map.) The Akron P&DC
                                      processes inbound4 and outbound mail5 for the city of
                                      Akron, Ohio, and associate offices in the surrounding
                                      area. In FY 2004, the Akron P&DC processed
                                      approximately 1.16 billion mailpieces, a decrease of
                                      approximately 3 percent from FY 2003. Average
                                      complement during this period of time also decreased
                                      3 percent. In FY 2004, the on-roll complement was
                                      433 employees compared to 448 employees in FY 2003.

    Objective, Scope, and             The audit assessed the efficiency of operations performed
    Methodology                       by the Akron P&DC. To assess the efficiency of the Akron
                                      P&DC, we observed mail processing operations; analyzed
                                      mail volumes, workhours, and machine utilization;
                                      interviewed Postal Service officials; and benchmarked
                                      achievement to target productivities with similar-sized
                                      facilities. We also reviewed applicable Postal Service
                                      handbooks and regulations including Handbook M-32,
                                      Management Operating Data System, Postal Bulletins, and
                                      Title 39, United States Code.

                                      We relied on Postal Service operational systems, including
                                      the National Workhour Reporting System, the Breakthrough
                                      Productivity Initiative Website, the Management Operating
                                      Data System, Web Flash Reports, the Web Enterprise
                                      Information System, and the Web End-of-Run System to
                                      analyze mail volume and workhours. We checked the
                                      accuracy of data by confirming our analysis and results with
                                      Postal Service managers and found no material differences.

                                      This audit was conducted from September 2004 through
                                      March 2005 in accordance with generally accepted
                                      government auditing standards and included such tests
                                      of internal controls as were considered necessary under
                                      the circumstances. We discussed our observations and
                                      conclusions with appropriate management officials and
                                      included their comments where appropriate.

4
  Incoming or inbound mail operations process mail that is destined for the service area including the associate
offices.
5
  Outgoing or outbound mail operations process mail that originates in the service area and is destined for other
service areas.



                                                          3
Efficiency Review of the Akron, Ohio,                                             NO-AR-05-009
 Processing and Distribution Center




   Prior Audit Coverage            We have issued 12 audit reports on workhour efficiency.
                                   (For more details see Appendix B.)




                                                 4
Efficiency Review of the Akron, Ohio,                                                  NO-AR-05-009
 Processing and Distribution Center



                                            AUDIT RESULTS
 Assessment of                    Resources at the Akron P&DC could be used more
 Resources at the                 efficiently. Specifically, the Akron P&DC:
 Akron Processing and
 Distribution Center                    •   Underused its processing machines, and experienced
                                            lower equipment productivity ratios than other similar-
                                            sized facilities.

                                        •   Processed less mail per workhour than the average
                                            of other similar-sized processing and distribution
                                            centers.

                                        •   Incurred excessive overtime and generally had higher
                                            amounts of overtime than other similar-sized facilities.

                                  Title 39, United States Code, Chapter 4, Section 403 states,
                                  “The Postal Service shall plan, develop, promote and
                                  provide adequate and efficient postal services. . . .”

                                  While efficiency has improved, the Postal Service managers
                                  had not evaluated operational efficiency by: (a) extensively
                                  analyzing operations and the associated workhours,
                                  (b) evaluating machine utilization, and (c) comprehensively
                                  benchmarking operations against similar-sized facilities.
                                  Consequently, the Akron P&DC was using more workhours
                                  than necessary to process its mail volume.

 Akron Processing and             The Akron P&DC machines were not being fully utilized.
 Distribution Center              Through analysis and observations, we found machine
 Machines Were Not                excess idle time existed at many of the mail processing
 Being Fully Utilized             operations. Table 1 shows a percentage of machine excess
                                  idle time for a two-year period from September 27, 2002,
                                  through September 27, 2004:




                                                     5
Efficiency Review of the Akron, Ohio,                                                                   NO-AR-05-009
 Processing and Distribution Center



                                                              Table 1 - IDLE TIME
                                                  OPERATION                  PERCENT OF IDLE TIME*
                                           Advanced Facer-Canceler                58 percent
                                             Delivery Barcode Sorter              27 percent
                                       Multiline Optical Character Reader         27 percent
                                        Mail Processing Barcode Sorter            38 percent
                                       Upgraded Flat Sorter Machine 1000          19 percent
                                       Automated Flat Sorter Machine 100           1 percent
                                           Small Parcel Bundle Sorter             11 percent

                                      *Percent of idle time equals idle time divided by machine operating time.
                                      Idle time does not include down and maintenance time.6

                                      Further, an analysis of target productivity levels confirmed
                                      that machines were being underused. The Akron P&DC
                                      had not achieved target productivity levels7 for the past
                                      two fiscal years for its mail processing operations (see
                                      Appendix C), with the exception of the automated flat sorting
                                      machine 100. Target productivity levels are based on total
                                      pieces of mail that could be processed for each machine or
                                      workhour of an operation. In FY 2004, the Akron P&DC
                                      achieved 74 percent of its total target productivity levels.
                                      Likewise, in FY 2003, the Akron P&DC achieved 67 percent
                                      of its total targeted productivity levels.

                                      Achieving established productivity levels could lead to a
                                      reduction in workhours. For example, the delivery barcode
                                      sorting operation achieved 69 percent of its national target
                                      level in FY 2003. If this operation achieved 85 percent of
                                      the national target level, the Akron P&DC could save over
                                      23,800 processing workhours in this one operation. By
                                      achieving 85 percent of target in all operations, the Akron
                                      P&DC could reduce workhours by over 235,000.
                                      Appendix C shows the percentage of target productivity
                                      levels achieved for each operation and the potential
                                      workhour saving that could be obtained through
                                      achievement of selected target productivity levels.



6
  Maintenance time is when the machine is down for ordinary maintenance. Runtime is when the machine is
processing mail. Idle time is when the machine is available for processing of mail but no mail exits. Operating time is
runtime plus idle time and maintenance time.
7
  Target productivity levels under Breakthrough Productivity Initiative are based on total pieces of mail that should be
processed for each machine or workhour of an operation.



                                                           6
Efficiency Review of the Akron, Ohio,                                                                          NO-AR-05-009
 Processing and Distribution Center




    Akron P&DC Processed                Although efficiency at the Akron P&DC had improved, when
    Less Mail per Workhour              compared to other similar-sized facilities, it was generally
    Than Other Processing               less efficient. Table 2 depicts productivity levels using
    and Distribution Centers            first handling pieces8 per workhour and total pieces handled
                                        per workhour for FYs 2003 and 2004:

                                                               Table 2
                                         Comparison of Akron P&DC, First Handling Pieces and
                                           Total Pieces Per Workhour Rates Versus All Group 4
                                                               Facilities9
                                                                      FIRST
                                                                    HANDLING
                                                    FIRST          PIECES PER                               TOTAL PIECES
                                                  HANDLING         WORKHOUR           TOTAL PIECES          HANDLED PER
                                                 PIECES PER          FOR ALL          HANDLED PER          WORKHOUR FOR
                                          FISCAL WORKHOUR            GROUP 4         WORKHOUR FOR           ALL GROUP 4
                                           YEAR FOR AKRON          FACILITIES            AKRON               FACILITIES


                                          2003         81710            886                1,759                  2,022

                                          2004         873              920                2,478                  2,743


                                        For FYs 2003 and 2004, first handling pieces per workhour
                                        rates for the Akron P&DC were 817 and 873, compared to
                                        all Group 4 processing and distribution centers first handling
                                        pieces per workhour of 886 and 920, respectively. These
                                        rates show that the Akron P&DC processed less mail per
                                        workhour than the average of Group 4 processing and
                                        distribution centers. A similar trend was found when using
                                        the total pieces handled per workhour. The Akron P&DC, in
                                        FYs 2003 and 2004, had total pieces handled per workhour
                                        rates of 1,759 and 2,478, respectively, compared to the
                                        group average of 2,022 and 2,743, respectively.

    Overtime Workhours                  Overtime workhours were excessive in relation to workload.
    Were Excessive in                   The mail volume (first handling pieces) processed at the
    Relation to Workload                Akron P&DC increased from 648 million pieces in FY 2003
                                        to 680 million pieces in FY 2004, an increase of nearly

8
  A first handling piece is a letter, flat, or parcel that receives its initial distribution in a Postal Service facility.
9
  This chart shows the total of mailpieces processed either first handling or total pieces handled for every mail
processing workhour.
10
   For example, Akron P&DC processed first handling pieces at the rate of 817 pieces per workhour. This rate is
calculated by using the following formula–first handling pieces divided by mail processing workhours equals
first handling pieces per workhour.



                                                               7
Efficiency Review of the Akron, Ohio,                                                                  NO-AR-05-009
 Processing and Distribution Center


                                       5 percent. The overtime rate11 used to process this mail
                                       increased from 10.96 percent in FY 2003 to 11.60 percent in
                                       FY 2004, an increase of nearly 6 percent. This means that
                                       the overtime rate was increasing at a higher rate than the
                                       mail volume. Figure 3 shows the increase in overtime hours
                                       in FY 2004 from the same period the previous year.

                                                    FIGURE 3




 SPLY – same period last year - disregard Xs in chart header
 MODS – Management Operating Data System

                                       Additionally, in comparison to other similar-sized facilities,
                                       the Akron P&DC generally had higher overtime rates. In
                                       FYs 2003 and 2004, the average overtime rate for
                                       all similar-sized Group 4 facilities was 8.9 percent and
                                       10.6 percent, respectively; while the Akron P&DC overtime
                                       rate was 10.96 percent and 11.60 percent, respectively.
                                       The higher Akron P&DC overtime rate indicated the potential
                                       for workhour savings through the reduction of unnecessary
                                       overtime.

 Reasons and Impact for                Management at the Akron P&DC had addressed operational
 Not Being as Efficient as             efficiency by reducing workhours in response to budgeted
 Possible                              workhours. As a result, they had reduced FY 2003

11
     Overtime rate is determined by dividing mail processing overtime workhours by total mail processing workhours.



                                                           8
Efficiency Review of the Akron, Ohio,                                               NO-AR-05-009
 Processing and Distribution Center


                                  workhours by approximately 41,000 or 5 percent from
                                  FY 2002 levels.

                                  However, Postal Service managers had not evaluated
                                  operational efficiency by: (a) extensively analyzing
                                  operations and the associated workhours, (b) evaluating
                                  machine utilization, and (c) comprehensively benchmarking
                                  operations against similar-sized facilities.

                                  In addition, observations conducted at the Akron P&DC
                                  found employee productivity could be improved. For
                                  example, we found:

                                        •   Excessive idle time at many operations because of
                                            insufficient workload.

                                        •   Some parcels and bundles processed manually could
                                            have been processed more efficiently on mechanized
                                            equipment.

                                        •   Some employees not sufficiently supervised during
                                            tour changes and returning off breaks to duty
                                            stations.

                                  Consequently, the Akron P&DC was using more workhours
                                  than necessary based on its mail volume. As a result, we
                                  estimated that approximately 235,000 workhours could be
                                  reduced. This 235,000 workhour reduction could produce a
                                  cost avoidance of approximately $74 million based on labor
                                  savings over ten years. (See Appendix D.)

 Recommendations                  To improve efficiency, we recommend the senior plant
                                  manager, Akron, Northern Ohio District:

                                        1. Reduce 235,000 workhours at the Akron Processing
                                           and Distribution Center; this will result in an
                                           associated economic impact of approximately
                                           $74 million.

                                        2. Periodically evaluate the operating efficiency,
                                           machine utilization, and staffing at the Akron
                                           Processing and Distribution Center to determine
                                           whether further workhour adjustments are necessary
                                           based on workload.




                                                    9
Efficiency Review of the Akron, Ohio,                                               NO-AR-05-009
 Processing and Distribution Center


 Management’s                     Management agreed with our finding, recommendations,
 Comments                         and associated monetary impact. Management’s response
                                  indicated that a combination of workhour reductions and
                                  increase in mail volume through consolidations could
                                  achieve the same efficiency improvement as the
                                  recommended 235,000 workhour reduction. In a
                                  subsequent meeting, management agreed to implement the
                                  recommendations by FY 2012.

 Evaluation of                    Management's comments reflect that the senior plant
 Management’s                     manager, Akron, Northern Ohio District, and the Eastern
 Comments                         Area are taking a very proactive approach in the
                                  implementation of our recommendations. Management’s
                                  planned actions should correct the issues identified in the
                                  finding.




                                                 10
Efficiency Review of the Akron, Ohio,                                                                                                                                                                         NO-AR-05-009
 Processing and Distribution Center



                                                                                                                    APPENDIX A

                                   EASTERN AREA MAP BY THREE DIGIT ZIP CODE AREA

                                                                                                            Erie
              Eastern Area                                                                           155,157-168
                                                                                                                                                                                                       169
                                                                                                                                                                                                                            188

                                                                                                                                                                                                                            Wilkes-Barre
                                                                                                                                                                                                                                            Scranton

                                                                                                                                                                                                                                            184-5
                                                                                                                                                                                                                                                                        Central PA
                                                                                                                                                                                                                                                                  169-176,177-179, 182,
                          Northern Ohio                                                                                                                ERIE
                                                                                                                                                      164-5
                                                                                                                                                                                        167
                                                                                                                                                                                                     Williamsport
                                                                                                                                                                                                                             186-7
                                                                                                                                                                                                                                               183
                                                                                                                                                                                                                                                                    184-188, 195-196
                                                                                439, 440-449
                                                                                                                                                                    163                                      177
                                                                                                                                    CLEVELAND
                                                                                                                                   440-1                New
                                                                                                                                                                                    158
                                                                                                                                                                                                                      178
                                                                                                                                                                                                                                    182         180-1
                                                                                                                                                                                                                                              Lehigh Valley
                                                                                                                                                                                                                                                                           Philadelphia
                                                                                      Toledo                                                           Castle                                     168
                                                                                  434-6
                                                                                                                                         Youngstown                       162                                                 179
                                                                                                                                                                                                                               Reading              189                      Metro
                              Columbus                                                                    448-9
                                                                                                                          AKRON
                                                                                                                          442-3              444-5
                                                                                                                                                       161 160
                                                                                                                                                                                  157
                                                                                                                                                                                           Altoona         HARRISBURG                195-6
                                                                                                                                                                                                                                               194                         180-1, 183, 189-194




                                                                                                                                                                                                                                                           2
                                                                                                                                                                                                                                                                PHILADELPHIA




                                                                                                                                                                                                                                                         0-
                       430-433,437-438,456-457                                                       Mansfield                                                                                                170-1




                                                                                                                                                                                                                                                       19
                                                                                                                                                                                                                                     Southeastern
                                                                               458                                           Canton                                                           166
                                                                               Lima                                                  446-7                  PITTSBURGH                Johnstown
                                                                                                                                                                                                                            LANCASTER        193                SOUTH
                                                                                                                                                          150-2            156       159                                                                       JERSEY
                                                                                                   433                                    Steubenv ille                     Greensburg                  172          173-6
                                                                                                                                                                                                                                                         080-1,3




                                                                                                                                                                                                                                                                      ,4
                                                                                                                                               439                                                                                   197-8




                                                                                                                                                                                                                                                                   082
                                                                                                                           Zanesv ille                      153           154        155                                           Wilmington
                                                                                                                                                      Wheeling
                                                                                                                                                      260                                            254                                           199
                                                                                453-5                                       437-8
                                                                                                    COLUMBUS                                                    265
                                                                                                     430-2                                                                                  267
                                                                               Dayton
                  Cincinnati                                                                                                 457
                                                                                                                                                  Clarksburg

                                                                                                                                                       263-4                        268                          Pittsburgh
                                                                                                                                         261
                 410, 434-436,450-                                                    CINCINNATI           Chillicothe                                                                                           150-154,156, 260
                 455,458-459,470                                        470
                                                                                        450-2               456                          250-3         266
                                                                                                                                                                      262
                                                                                                                                                                                                                                                                 South Jersey
                                                                                                                                     CHARLESTON                                                                                                                     080-084,197-199
                                                                                  410
                                                                                                          Ashland
                                                                                                                                                                                                                     Appalachian
                                                                                                                          Huntington                                249                                       240-243, 245-259, 261-268
                                                                                                             411-2         255-7
                                                          471
                                                                                         Lexington
                                                                                                                                                  258-9                                       Lynchburg
                                  476-7                           LOUISVILLE
                                 Ev ansv ille
                                                                     400-2
                                                                                      403-6
                                                                                                         413-4           415-6
                                                                                                                                           247-8
                                                                                                                                          Bluefield                                        245                                                                          Greensboro
                                                                                                                                                                          Roanoke
                                                                                                                                                                                                                                                                           270-279, 286
                                                                                                                                                                          240-1
                                                                                                                                         246
                                                423               427                                        417-8                                                                                                                              279
                                  424                                                                                                                  243
                                                                                                   London
                                                                                                                            242                                                                                               278
                                                                                 425-6             407-9                 Bristol
                                                        Bowling                                                                                                                                             275-7              Rocky
                                                         Green                                                                                                                  GREENSBORO                                     Mount
                                                                                                                                                                                                           Raleigh
                                                421-2
                       Paducah
                                                                                                                                                      286
                        420                                                                                                                               Hickory                    270-4
                                                                                                                                                                                                                                  Kinston


                                                                                                                            Ashev ille
                                                                                                                                                                     CHARLOTTE
                                                                                                                                                                                                     Fayettev ille
                                                                                                                                                                                                                                      285                               Mid-Carolinas
                                                                                                                                                            280-2
                                                                                                                                                                                                           283
                                                                                                                                                                                                                                                                        280-285, 287-289, 297
                                                                                                                    287-9
                                                                                                                                                                    297
                                                                                                                                                                                                                       284
                                        Kentuckiana                                                                                296
                                                                                                                            Greenv ille
                                                                                                                                                 293
                           400-409,411-418,420-427,471,476-477                                                                                                                                    295
                                                                                                                                                                      290-2                           Florence
                                                                                                                                                                                                                                                                               Distri ct & P&DC
                                                                                                                                                                     COLUMBIA
                                                                                                                                                                                                                                                                               P&DC/P&DF/CSF

                                       Greater South Carolina                                                                                                                                                                                                                  L&DC
                                                                   290-296                                                                                                                                                                                                     BMC
                                                                                                                                                                                          294
                                                                                                                                                                                                                                                                               AMC/ AMF
                                                                                                                                                                                    Charleston
                                                                                                                                                                                                                                                                               REC

            11/14/03




                                                                                                                                               11
Efficiency Review of the Akron, Ohio,                                       NO-AR-05-009
 Processing and Distribution Center



                                        APPENDIX B

                                 PRIOR AUDIT COVERAGE

Efficiency Review of the Mansfield, Ohio, Main Post Office (Report Number NO-AR-05-
004, December 8, 2004.) found the Mansfield Main Post Office (MPO) could improve
operational efficiency by reducing 24,000 mail processing workhours, based on the
assumption that mail volume will not significantly change from FY 2003 levels. This
would allow the Mansfield MPO to achieve 90 percent of its targeted goals and could
produce a cost avoidance of approximately $7.6 million based on labor savings over
ten years. We also concluded there is a favorable business case to move the Mansfield
MPO’s outgoing mail operations to the Akron P&DC. This consolidation would save an
additional 28,000 workhours at the Mansfield MPO, improve network efficiencies, and
potentially upgrade delivery service. This workhour reduction could produce a cost
avoidance of over $9.6 million based on labor savings over ten years. Management
agreed to our finding, recommendations, and monetary impact and has initiatives in
progress or planned addressing the issues in this report.

Efficiency of the New York International Service Center (Report Number NO-AR-04-
009, September 24, 2004) found the New York International Service Center (ISC) could
improve the efficiency of processing international and military mail by reducing
employee workhours by 326,000 and increasing supervisory workhours by 6,000, for a
net reduction of 320,000 workhours. This reduction of 320,000 workhours could
produce a cost avoidance of more than $98 million based on labor savings over
ten years. We made two recommendations to Postal Service management addressing
these issues. Management agreed with our finding, recommendations and monetary
impact and has initiatives in progress or planned addressing the issues in this report.

Efficiency of the Airmail Records Unit at the New York International Service Center
(Report Number NO-AR-04-011, September 24, 2004) found the New York ISC could
improve the efficiency of the Airmail Records Unit by reducing workhours by 30,000.
Management should also consider outsourcing the Air Mail Records Unit, since this
operation is not core to New York ISC’s mission of processing international mail. A
reduction of 30,000 workhours could produce a cost avoidance of about $9,250,000
based on labor savings over ten years. We made two recommendations to Postal
Service management addressing these issues. Management agreed with our finding,
recommendations, and monetary impact and has initiatives in progress or planned
addressing the issues in this report.

Efficiency of the San Francisco International Service Center and the General Services
Administration Facility (Report Number NO-AR-04-006, March 31, 2004) found the
district should reduce the workhours necessary to process mail at the San Francisco
ISC, transfer mail from the General Services Administration (GSA) Facility to the
San Francisco ISC, and close the GSA Facility. During the audit, Postal Service


                                            12
Efficiency Review of the Akron, Ohio,                                         NO-AR-05-009
 Processing and Distribution Center


management agreed to reduce mail processing workhours at the San Francisco ISC
by 120,000 hours by the end of FY 2007. The reduced workhours could produce an
estimated cost avoidance of approximately $39 million over ten years. In addition,
management agreed to close the GSA facility, which could produce a cost avoidance
of approximately $5.2 million over ten years. We recommended the manager,
San Francisco District, reduce hours as planned, close the GSA Facility, and
periodically reevaluate staffing. Management agreed and the actions taken and
planned were responsive to the issues identified in the report.

Efficiency of the Oakland International Service Facility and the Regatta Facility (Report
Number NO-AR-04-007, March 31, 2004) found the district should reduce the
workhours necessary to process mail at the Oakland International Service Facility,
transfer mail from the Regatta Facility, and close the Regatta Facility. During the audit,
Postal Service management agreed to reduce mail processing workhours at the
Oakland ISF by 25,000 by the end of FY 2006. The reduced workhours could produce
an estimated cost avoidance of approximately $5.4 million over ten years. In addition,
management agreed to close Building 512 rather than the Regatta Facility due to an
early termination of the Building 512 lease. Closure of Building 512 could produce a
cost avoidance of approximately $3.4 million. We recommended the manager, Oakland
District, reduce hours as planned, close Building 512, and periodically reevaluate
staffing. Management agreed and the actions taken and planned were responsive to
the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Springfield, Virginia,
Business Mail Entry Unit (Report Number NO-AR-04-004, February 9, 2004) found that
the district should reduce the workhours necessary to accept business mailings in the
Springfield, Virginia, Business Mail Entry Unit (BMEU). During the audit, Postal Service
management agreed to reduce business mail entry workhours by 2,775 by the end of
FY 2006. The reduced workhours could produce an estimated cost avoidance of
$969,893 over ten years. We recommended the manager, Northern Virginia District,
reduce hours as planned and periodically reevaluate staffing. Management agreed and
the actions taken and planned were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Columbia, Maryland,
Business Mail Entry Unit (Report Number NO-AR-04-002, December 26, 2003) found
the district should reduce the workhours necessary to accept business mailings in the
Columbia, Maryland, BMEU. During the audit, Postal Service management agreed to
reduce business mail entry workhours by 3,960 by the end of FY 2005. The reduced
workhours could produce an estimated cost avoidance of approximately $1.4 million
over ten years. We recommended the manager, Baltimore District, reduce hours as
planned and periodically reevaluate staffing. Management agreed and the actions
taken and planned were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks at the Southern Maryland
Business Mail Entry Unit (Report Number NO-AR-04-001, December 24, 2003) found



                                            13
Efficiency Review of the Akron, Ohio,                                       NO-AR-05-009
 Processing and Distribution Center


the district should reduce the workhours necessary to accept business mailings in the
Southern Maryland BMEU. During the audit, Postal Service management agreed to
reduce business mail entry workhours by 20,240 by the end of FY 2006. The reduced
workhours could produce an estimated cost avoidance of approximately $8.4 million
over ten years. We recommended the manager, Capital District, reduce hours as
planned and reevaluate staffing needs periodically. Management agreed, and the
actions taken and planned were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the San Francisco
District (Report Number AO-AR-03-002, September 25, 2003) found the district should
reduce the workhours necessary to accept business mailings in the San Francisco
BMEU. During the audit, Postal Service management agreed to reduce business mail
entry workhours by 18,000 by the end of FY 2006. The reduced workhours could
produce an estimated cost avoidance of approximately $6.9 million over ten years. We
recommended the manager, San Francisco District, reduce hours as planned and
reevaluate staffing needs periodically. Management agreed and the actions taken and
planned were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the Los Angeles
District (Report Number AO-AR-03-001, July 31, 2003) found the district should reduce
the workhours necessary to accept business mailings. During the audit, Postal Service
management agreed to reduce business mail entry workhours by 28,800 by the end
of FY 2005. The reduced workhours could produce an estimated cost avoidance
of approximately $9.26 million over ten years. We recommended the manager,
Los Angeles District, reduce hours and reevaluate staffing needs periodically.
Management agreed with our recommendations and has initiatives in progress
addressing the issues identified in the report.

Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers (Report Number CQ-AR-03-001, March 28, 2003) found
that these facilities should reduce the workhours necessary to accept business mailings.
Management could save an estimated $588,730 through the end of FY 2005 when its
planned workhour reductions are fully implemented. We recommended that senior
plant managers at the Seattle, Minneapolis, and Des Moines Bulk Mail Centers (BMCs)
reduce hours, reevaluate staffing needs periodically, and ensure that appropriately
trained personnel perform acceptance functions. Management agreed and the actions
taken and planned were responsive to the issues identified in the report.

Work Performed by Business Mail Entry Employees in the Colorado/Wyoming
Performance Cluster (Report Number CQ-AR-02-001, September 26, 2002) found that
many of the business mail entry employees at the Denver BMC and Denver General
Mail Facility were not needed to accept business mailings. Management could save an
estimated $1 million annually if the number of employees was reduced. We
recommended management oversee the consolidation of business mail entry
operations and reduce staff as planned, and reevaluate staffing to determine whether



                                           14
Efficiency Review of the Akron, Ohio,                                    NO-AR-05-009
 Processing and Distribution Center


further staff reductions were necessary. Management agreed and the actions taken
and planned were responsive to the issues identified in the report.




                                         15
Efficiency Review of the Akron, Ohio,                                                                                             NO-AR-05-009
 Processing and Distribution Center




                                                                                                    APPENDIX C

      TARGETED PRODUCTIVITY LEVELS ACHIEVED BY EACH TYPE OF MAIL PROCESSING
       OPERATION AND POTENTIAL WORKHOUR SAVINGS BASED ON PERCENTAGE OF
                             ACHIEVEMENT TO TARGET
                                FYS 2003 AND 2004




                                                                  PIEC ES PER HOU R                             PER C EN T OF T A R GET
                                                          PR OD U C T IV IT Y             PR OD U C T IV IT Y       A C HIEV ED                     POT EN T IA L HOU R SA V IN GS
                                                              2003            2004             T arg et              2003            2004          10 0 %          9 5%            8 5%            75%
  Updated Flat Sorting M achine 1000                                   460           430                   562              82%              77%         3,756          3,568             3,192          2,817
  Automated Flat Sorting M achine 100                                1,892         2,109                  2,113             90%             100%         4,813          4,572            3,850          3,369
  Small Parcel Bundle Sorter                                           209           247                   366              57%              67%       24,639         23,407              19,711       17,247
  Delivery Barcode Sorter                                            7,310         7,670                10,634              69%              72%       29,838         28,346           23,870         20,886
  M uliline Optical Character Reader                                  4,291        5,506                 8,372               51%             66%        14,126         13,419            11,301         9,888
  M ail Processing Barcode Sorter                                    6,084         7,494                 9,448              64%              79%        13,176          12,517           10,541         9,223
  Advanced Facer Cancler Sorter                                     14,803        14,991               20,890                71%             72%         1,998          1,898             1,598         1,399
  M anual Letters*                                                     431            521                  892              48%              58%       36,748          34,911          29,399          25,724
  Sack sorter                                                           N/A          N/A                   N/A              N/A              N/A            N/A            N/A               N/A           N/A
  Labor Distribution Code 17 **                                         N/A           N/A              135,196              47%              50%      147,326        139,960            117,861       103,128
  Labor Distribution Code 18 **                                         N/A           N/A               29,212              63%              48%        17,120        16,264            13,696         11,984

  A kro n P&D C T o t als                                         3 5,4 8 0            3 8 ,9 6 8       2 17,6 8 5       6 7%               74 %   2 9 3 ,53 9    2 78 ,8 6 2         2 3 5,0 19   2 0 5,6 6 5

  *M anual let t ers p ro d uct ivit y b ased o n t o t al p ieces f ed

  * *N o n - vo lume lab o r d ist rib ut io n co d es - t arg et s est ab lished in B PI




                                                                                                         16
Efficiency Review of the Akron, Ohio,                                         NO-AR-05-009
 Processing and Distribution Center



                                        APPENDIX D

            COST AVOIDANCE AT THE AKRON PROCESSING AND
                        DISTRIBUTION CENTER
                     (FUNDS PUT TO BETTER USE)


                                          Yearly         Cost Avoidance
                                         Workhour        (Ten Years with
                   Year
                                         Reduction         Escalation)

        FY 2006
        (Effective Accounting              82,000          $35,507,041
        Period 1)
        FY 2007-2012 (six fiscal
        years at 25,500 hours per         153,000          $72,801,120
        year
        (Effective Accounting
        Period 1)

        Totals                            235,000         $108,308,161

                                        Present Value
                                                          $73,996,558
                                         at 5 percent
                                        for ten years

NOTES

    •    The 235,000 workhour reduction was based on Postal Service management’s
         plan to reduce workhours over a seven-year period based on FY 2003 hour
         usage of 793,066.
    •    The cost avoidance was calculated using the hour saving multiplied by the
         escalated labor rate over a ten-year period.
    •    The net present value was calculated using the discount rate of 5 percent over a
         ten-year period.
    •    Labor rates were based on the Postal Service March 2004 published rates for a
         Postal Service level 05 (PS-05) mail processing clerks.
    •    The yearly escalation factor is 2.7 percent based on the Postal Service’s
         Decision Analysis Factors effective October 2004.

FUNDS PUT TO BETTER USE--Funds that can be used more efficiently by
implementing recommended actions.




                                               17
Efficiency Review of the Akron, Ohio,                  NO-AR-05-009
 Processing and Distribution Center



                   APPENDIX E. MANAGEMENT’S COMMENTS




                                        18
